           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                               Date:    July 21, 2010
           Single Audit on the Port Authority of Allegheny County
           Report No. QC-2010-072
                                                                             Reply To    JA-20
  From:    Earl C. Hedges                                                     Attn Of:
           Program Director for Single Audit
    To:    Regional Administrator, FTA, Region III
           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Port Authority of Allegheny County (Authority). This report
           presents the results of our Quality Control Review of a single audit performed on
           the Authority by Maher Duessel, CPAs, for the fiscal year ending June 30, 2009.
           During this period, the Authority expended almost $115 million from six DOT
           grant programs, as shown in the following chart.

             DOT Operating               CFDA*     Program               FY 2009     Major Direct
             Administration                #        Name               Expenditures Program Award
               Federal Transit                    Capital Investment
                                         20.500                         $70,488,519       Yes      Yes
               Administration                      Grants Program
               Federal Transit                     Formula Grants
                                    20.507                              $41,798,107       Yes      Yes
               Administration                          Program
                                                        Public
              Federal Transit
                                    20.514          Transportation           $3,693        No      Yes
              Administration
                                                      Research
              Federal Transit                    Job Access Reverse
                                    20.516                               $2,110,160        No      Yes
              Administration                          Commute
              Federal Transit                        Metropolitan
                                    20.505                                 $184,000        No      No
              Administration                       Planning Grants
             Federal Railroad                    High Speed Ground
                                    20.312                                    $705         No      No
              Administration                        Transportation
           * Catalogue of Federal Domestic Assistance

           Office of Management and Budget (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations;” requires the auditor to render
           an opinion on an entity’s financial statements, identify potential inappropriate use
           of Federal funds, and report internal control and compliance deficiencies that
           affect Federal grant programs.
                                                                                                       2

Maher Duessel rendered an unqualified (clean) opinion on the Authority’s
financial statements and compliance for major programs, and did not question any
costs concerning DOT grant programs. 1

The purpose of our review was to determine: (1) whether the work complied with
generally accepted government auditing standards as prescribed by the
Comptroller General of the United States; the Single Audit Act of 1984, as
amended (Act); and OMB Circular A-133; and (2) the extent to which we could
rely on the auditor’s work.

RESULTS

Based on our Quality Control Review, we determined that Maher Duessel's work
generally met the requirements of generally accepted government auditing
standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Maher Duessel’s opinion on the financial statements or reports on internal control
and compliance were inappropriate or unreliable.

However, we identified deficiencies in audit documentation that need to be
corrected in future audits. Based upon the explanations provided by Maher
Duessel in response to our concerns, we determined that these deficiencies did not
alter the overall results of the audit. Yet, these deficiencies should be corrected in
future audits in order adequately support audit conclusions. The deficiencies are
related to the following areas:

1. Testing of Major Program Internal Controls.
   Maher Duessel did not document the specific direct and material major
   program internal controls that they tested. Maher Duessel explained that its
   approach was to document internal control systems and perform system
   walkthroughs while relying on dual-purpose testing to address both internal
   control and compliance requirements. Maher Duessel agreed to fully
   document its identification and testing of key internal controls in future audits.

2. Sampling Methodology.
   Maher Duessel did not document the formal sampling plan and methodology it
   used to test direct and material major program compliance requirements.
   According to information the auditors provided to us, Maher Duessel's
   sampling methodology included adequate sample selections for testing major
   program compliance requirements. Maher Duessel agreed to document its
   formal sample selection methodology in future audits.



1
    The single audit report issued by Maher Duessel is available upon request. Requests should be sent to
    singleauditrequest@oig.dot.gov.
                                                                                3

If you have any questions concerning this report, please call me at (410) 962-1729
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.
                                        #

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Controller, Port Authority of Allegheny County
